 

In the Supreme Court of the United States

 

STATE OF WEST VIRGINIA, ET AL.,
Petitioners,
v.

U.S ENVIRONMENTAL PROTECTION AGENCY
AND MICHAEL REGAN, ADMINISTRATOR OF THE
U.S, ENVIRONMENTAL PROTECTION AGENCY,

Respondents.

ON PETITION For A WRIT OF CERTIORARI
To THE UNITED STATES COURT OF APPEALS
For THE DistRIcT OF COLUMBIA CIRCUIT

 

CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1(h), I certify that the Petition. for a Writ of
Certiorari contains 8,997 words, excluding the parts of the brief that are exempt by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 29, 2021.

Lindsay S. See
Solicitor General
Counsel of Record

OFFICE OF THE

WEST VIRGINIA
ATTORNEY GENERAL
State Capitol Complex
Building 1, Room E-26
Charleston, WV 25305
lindsay.s.see@wvago.gov
(304) 558-2021
